CLERK OF THE NEBRASKA SUPREME COURT
AND NEBRASKA COURT OF APPEALS
2413 State Capitol, P.O. Box 98910.

Lincoln, Nebraska 68509-8910
(402) 471-3731
FAX (402) 471-3480

 

September 15, 2020

Abbi Rose Romshek

abbi. romshek@douglascounty-ne.gov

IN CASE OF: A-19-000643, State v. Augustine L. Cavitte

TRIAL COURT/ID: Douglas County District Court CR18-1581

The following filing: Petition Appellant for Further Review
Filed on 08/05/20
Filed by appellant Augustine L Cavitte

Has been reviewed by the court and the following order entered:

Petition of Appellant for further review is denied.

Respectfully,

Clerk of the Supreme Court
and Court of Appeals

a App andl X
